NATIONAL ENDOWMENT FOR THE ARTS
    OFFICE OF INSPECTOR GENERAL




 SEMIANNUAL REPORT TO THE CONGRESS

   OCTOBER 1, 2011 – MARCH 31, 2012
SEMIANNUAL REPORT TO THE CONGRESS

     OCTOBER 1, 2011 – MARCH 31, 2012

     OFFICE OF INSPECTOR GENERAL

   NATIONAL ENDOWMENT FOR THE ARTS
                                                                          April 30, 2011



MEMORANDUM

TO:           Rocco Landesman
              Chairman

FROM:         Tonie Jones
              Inspector General

SUBJECT:      Semiannual Report to the Congress: October 1, 2011 – March 31, 2012

The Inspector General Act of 1978 (IG Act), as amended (5 U.S.C. App.), calls for the
preparation of semiannual reports to the Congress summarizing the activities of the Office of
Inspector General (OIG) for the six-month periods ending each March 31 and September 30. I
am pleased to enclose the report for the period from October 1, 2011 to March 31, 2012.

The Inspector General’s report is intended to cover audits, inspections, evaluations,
investigations and other reviews conducted by the OIG as well as our review of the OMB
Circular A-133 audits conducted by independent auditors. The report also indicates the status
of management decisions whether to implement or not to implement recommendations made
by the OIG. The former President’s Council on Integrity and Efficiency developed the reporting
formats for Tables I and II to ensure consistent presentation by the Federal agencies. The
tables provide only summary totals and do not include a breakdown by auditee.

The Act requires that you transmit this report to the appropriate committees of the Congress
within 30 days of receipt, together with any comments you may wish to make. Comments that
you might offer should be included in your "Report on Final Action," a management report that
is required to be submitted along with the Inspector General’s report. We will work closely with
your staff to assist in the preparation of the management report. The due date for submission
of both reports is May 30, 2012.

I appreciate the continuing support we have received from the Chairman’s Office and your
managers throughout the Agency. Working together, I believe we have taken positive steps to
improve Agency programs and operations. We look forward to continuing these efforts.
                                 TABLE OF CONTENTS
                                                                                   PAGE


NATIONAL ENDOWMENT FOR THE ARTS                                                      1

OFFICE OF INSPECTOR GENERAL                                                          1

SUMMARY OF WORK COMPLETED BY THE OIG                                                 2

   Audits/Inspections/Evaluations/Reviews                                            2
   Audit Resolution                                                                  2
   Inspections                                                                       2
   Investigations                                                                    2
   Audit of the NEA Fiscal Year 2011 Financial Statements                            2
   NEA’s Compliance with the Federal Information Security Management Act of 2002     3
   Review of Legislation, Rules, Regulations and Other Issuances                     3
   Technical Assistance                                                              3
   Web Site                                                                          3
   Other Activities                                                                  3

SECTIONS OF REPORT                                                                   5

   SECTION 1 - Significant Problems, Abuses and Deficiencies                         5

   SECTION 2 - Recommendations for Corrective Action                                 5

   SECTION 3 - Recommendations in Previous Reports on Which
                 Corrective Action Has Not Been Implemented                          5

   SECTION 4 - Matters Referred to Prosecuting Authorities                           5

   SECTION 5 - Denials of Access to Records                                          5

   SECTION 6 - Listing of Reports Issued                                             6

   SECTION 7 - Listing of Particularly Significant Reports                           7

   SECTION 8 - Statistical Tables Showing Total Number of Audit Reports
                 and the Dollar Value of Questioned Costs                            7

   SECTION 9 - Statistical Tables Showing Total Number of Audit Reports
                 and the Dollar Value of Recommendations that Funds be
                 Put to Better Use by Management                                     7

   SECTION 10 - Audit Reports Issued Before the Commencement of the Reporting
                 Period for Which No Management Decision Has Been Made by
                 the End of the Reporting Period                                     7
                                   TABLE OF CONTENTS


                                                                                         PAGE

     SECTION 11 - Significant Revised Management Decisions Made During the Period           7

     SECTION 12 - Significant Management Decisions With Which the Inspector
                    General Disagrees                                                       7

TABLE I - Inspector General Issued Reports With Questioned Costs                            8

TABLE II - Inspector General Issued Reports With Recommendations That Funds
              Be Put To Better Use                                                          9

Definitions of Terms Used                                                           Appendix A
NATIONAL ENDOWMENT FOR THE ARTS
Founded in 1965, the National Endowment for the Arts (NEA) offers assistance to a wide range of
non-profit organizations and individuals that carry out arts programming, as well as to State Arts
Agencies and Regional Arts Organizations. The NEA supports exemplary projects of excellence in
the artistic disciplines of artist communities, dance, design, folk and traditional arts, literature, media
arts, museums, music, musical theater, opera, presenting, theater, and visual arts, as well as for arts
education projects and local arts agencies. Grants are awarded for specific projects rather than for
general operating or seasonal support. Most NEA grants are matched dollar for dollar with non-
federal funds. The NEA received $146.021 million, net a rescission of .16%, through the Consolidated
Appropriations Act, 2012.

OFFICE OF INSPECTOR GENERAL
The Inspector General Act of 1978 (IG Act), as amended (5 U.S.C. App.), established independent,
objective units within Federal agencies for oversight purposes. In 1988, the Congress amended
the IG Act (P.L. No. 100-504) to establish statutory Inspectors General at additional departments
and agencies, as well at designated Federal entities and establishments, including the National
Endowment for the Arts. The mission of the Office of Inspector General (OIG) is to:

       -       Conduct and supervise independent and objective audits, inspections and
               evaluations relating to NEA programs and operations;

       -       Promote economy, effectiveness, and efficiency within the NEA;

       -       Prevent and detect fraud, waste, and abuse in NEA programs and operations;

       -       Review and make recommendations regarding existing and proposed legislation and
               regulations relating to NEA programs and operations; and

       -       Keep the NEA Chairman and the Congress fully and currently informed of problems
               in Agency programs and operations.

On October 14, 2008, the President signed the Inspector General Reform Act of 2008, Public Law
110-409. The 2008 Act amends the previous IG Act of 1978 by enhancing the independence of the
Inspectors General and creating a Council of the Inspectors General on Integrity and Efficiency.

This semiannual report summarizes the OIG's major activities, initiatives, and results for the six-
month period ending March 31, 2012. The OIG consists of four full-time positions, the Inspector
General and three auditors. Currently, the OIG is fully staffed. There is no investigator or general
counsel on the staff. To provide a reactive investigative capability, we have a Memorandum of
Understanding with the General Services Administration’s Office of Inspector General (GSA-OIG)
to provide investigative coverage for us on a reimbursable basis as needed. (No investigative
coverage from GSA-OIG was needed during the recent six-month period.) We also have a
Memorandum of Understanding with the National Credit Union Administration’s Office of Inspector
General (NCUA-OIG) that details procedures to be used for providing the NEA-OIG with legal
services pursuant to the new requirements reflected in the 2008 Act. An NCUA-OIG staff member
has been assigned to provide such services on an as-needed basis.




                                                                                                         1
SUMMARY OF WORK COMPLETED BY THE OIG
During the six-month period ending March 31, 2012, the OIG conducted the following audits,
inspections, evaluations, reviews, investigations, and other activities.

Audits/Inspections/Evaluations/Reviews

During the recent semiannual period, the OIG issued two reports which contained twelve
recommendations based on evaluations performed by OIG personnel. Eleven recommendations
were related to systems deficiencies at the NEA. Corrective actions for the eleven
recommendations to the NEA are in process. One recommendation was related to an NEA grantee
which was cleared during this reporting period.

Audit Resolution

At the beginning of the six-month period, there were two reports awaiting management decisions to
allow or disallow questioned costs of $172,931 with potential refunds of $93,485. One of the
organizations submitted documentation to support the questioned costs. A management decision
was made to allow all of the questioned costs in the amount of $90,898, which eliminated potential
refunds of $45,449. The OIG has requested additional documentation from the remaining
organization with remaining questioned costs. A management decision cannot be made until the
review has been completed. (See Table I)

During the period, none of the newly issued reports or memoranda identified any questioned costs
or potential refunds. Therefore, at the end of the period, one report remained outstanding with
questioned costs of $82,033 and potential refunds of $48,036. (See Table I)

Inspections

The OIG did not conduct any inspections during the recent six-month period.

Investigations

The OIG did not open any new allegation cases during the recent six-month period. The one case
opened prior to the start of the period remained open at the end of the period.

Audit of the NEA Fiscal Year 2011 Financial Statements

The Accountability of Tax Dollars Act of 2002 requires the NEA Office of Inspector General or an
independent external auditor, as determined by the Inspector General, to audit the agency financial
statements. Under a competitively awarded contract monitored by the OIG, Leon Snead &
Company, an independent certified public accounting and management consulting firm received a
one-year contract, with four option years to audit the NEA’s financial statements. The audits are
conducted following Generally Accepted Government Auditing Standards (GAGAS) and OMB
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as revised. In addition,
the firm provides reports on internal controls and compliance with laws and regulations for matters
relevant to the financial statement audit. The 2011 Financial Statement Audit Report was issued
November 8, 2011 and resulted in an unqualified (clean) opinion.

The entrance conference for the 2012 Financial Statement Audit is scheduled for April 2012.

                                                                                                      2
NEA’s Compliance with the Federal Information Security Management Act of 2002
(FISMA)

FISMA requires that each federal agency develop, document, and implement an agency-wide
program for providing security for the information and information systems that support the
operations and assets of the agency, including those provided or managed by another agency,
contractor, or other source.

The OIG completed a full FISMA evaluation in FY 2011 using the most recent applicable FISMA
requirements and guidelines published by the OMB and the National Institute of Standards and
Technology. The assessment found that although NEA made progress in complying with FISMA,
some additional improvements were needed. The OIG made eleven recommendations. Corrective
actions for all of the recommendations are in process.

Review of Legislation, Rules, Regulations and Other Issuances

The OIG is required to review and comment on proposed legislation and regulations for their
potential impact on the Agency and its operations. During this reporting period, the OIG provided
analyses and written commentaries on Agency and other government publications/reports and
regulations.

Technical Assistance

The OIG provided technical assistance to NEA grantees and their independent auditors. Our
efforts included, for example, clarifying and interpreting the audit requirements of OMB Circular A-
133, “Audits of States, Local Governments, and Non-Profit Organizations," and advising some of
the first-time and smaller organizations on implementing practical accounting systems and internal
controls sufficient to assure compliance with their grant agreements.

The OIG also assisted Agency staff with technical issues related to auditing, accounting, and audit
followup.

Web Site

The OIG maintains an ongoing Internet presence (www.arts.gov/about/OIG/Contents.html) to assist
and inform NEA grantees and Agency employees. The site includes pages for Reports; Recovery
Act including a section for Training and Resources; Reporting Fraud, Waste and Abuse; Career
Opportunities; External Peer Reviews of the OIG and Other Resources.

Other Activities

During this period, the OIG took part in the activities of the Council on Inspectors General for
Integrity and Efficiency (Council), and allocated resources for responding to information requests
from and for the Congress and other agencies. We have also participated in various efforts by the
Council and other federal agencies to develop effective oversight strategies for Recovery Act
activities. We continued our proactive oversight of NEA’s management of its Recovery Act funds
with an emphasis on the evaluation of recipients’ management of Recovery Act funds.




                                                                                                       3
The Government Accountability Office’s Government Auditing Standards requires audit
organizations that perform audits or attestation engagements to have an appropriate system of
quality control and to undergo external peer reviews at least once every 3 years. We conducted an
external peer review control review of another Office of Inspector General during this period.

The Improper Payments Information Act (IPIA) of 20023 and the Office of Management and Budget
(OMB) Circular A-123, Appendix C, Management’s Responsibility for Internal Control: Requirements
for Effective Measurement and Remediation of Improper Payments, require agencies to review all
programs and activities, identify those that are susceptible to significant erroneous payments, and
determine an annual estimated amount of erroneous payments made in those payments. The IPIA
was followed by the Improper Payments Elimination and Recovery Act (IPERA) in 2010 and a series
of OMB memoranda which included requirements for inspectors general to annually review and report
on their agency’s compliance with IPERA. The first annual report was due by March 15, 2012 to the
head of the agency, Congress, OMB and the General Accountability Office. We issued our first
annual report March 5, 2012.




3
    P.L. 111-204.
                                                                                                    4
                                SECTIONS OF REPORT
The following sections of this report discuss the 12 areas specifically required to be included
according to Section 5(a) of the IG Act of 1978, as amended. Table I shows Inspector General
issued reports with questioned costs and Table II shows that there were no Inspector General
issued reports with recommendations that funds be put to better use.

SECTION 1 – Significant Problems,                    SECTION 2 – Recommendations for
Abuses and Deficiencies                              Corrective Action

Audits, evaluations and other reviews                To assist grantees in correcting or avoiding
conducted by OIG personnel during the                the deficiencies identified in Section 1, the
current and prior periods have disclosed a           OIG utilizes two “Financial Management
few instances of deficient financial                 Guides,” one for non-profit organizations and
management practices in some organizations           the other for state and local governments.
that received NEA grants. Among these                The guides are not offered as complete
were:                                                manuals of procedures; rather, they are
                                                     intended to provide practical information on
   Reported grant project costs did not agree        what is expected from grantees in terms of
   with the accounting records, e.g., financial      fiscal accountability. The guides are available
   status reports were not always prepared           at www.arts.gov/about/OIG/Guidance.html.
   directly from the general ledger,
   subsidiary ledgers or worksheets                  The guides discuss accountability standards
   reconciled to the accounts;                       in the areas of financial management, internal
                                                     controls, audit, and reporting. The guides
   Personnel costs charged to grant projects         also contain sections on unallowable costs
   were not supported by adequate                    and shortcomings to avoid. In addition, the
   documentation, e.g., personnel activity           guides include short lists of useful references
   reports were not maintained to support            and some sample documentation forms.
   allocations of personnel costs to NEA
   projects;                                         SECTION 3 – Recommendations in
                                                     Previous Reports on Which Corrective
   The amount allocated to grant projects for        Action Has Not Been Implemented
   common (indirect) costs which benefited
   all projects and activities of the                There were no significant recommendations
   organization was not supported by                 in previous reports on which corrective action
   adequate documentation; and                       has not been implemented.

   Grantees needed to improve internal               SECTION 4 – Matters Referred to
   controls, such as ensuring proper                 Prosecuting Authorities
   separation of duties to safeguard
   resources and developing written policies         No matters were referred to prosecuting
   and procedures for the management of              authorities during this reporting period.
   Federal awards.
                                                     SECTION 5 – Denials of Access to
                                                     Records

                                                     No denials of access to records occurred
                                                     during this reporting period.




                                                                                                 5
            SECTION 6 – Listing of Reports Issued and OIG Hotline Contacts



REPORT                                                                                                                                   DATE OF
NUMBER                                                         TITLE                                                                     REPORT


                                                           Audit Report

A-12-01     Audit of NEA’s Financial Statements .................................................................................................................
                                                                                                                                       11/08/11



                              Financial Management System & Compliance Evaluations
                                                                                                                                                                        08
SCE-12-01   National Building Museum (DC)........................................................................................................................
                                                                                                                                       10/24/11



                                                       Special Reports

R-12-01     FY 2011 Evaluation of NEA’s Compliance with FISMA ...................................................................................
                                                                                                                       11/15/11

L-12-03     NEA’s Compliance under IPERA .....................................................................................................................
                                                                                                                                    03/05/12

                                                    TOTAL REPORTS – 4



                                                            Contacts

                           Telephone Calls………………………………………………………………….                                                                1
                           Email ……………………………………………………………………………..                                                                    0
                           Standard Mail…………………………………………………………………….                                                                 0
                           Referred by Other Sources……………………………………………………..                                                          0
                           Fax………………………………………………………………………………..                                                                      0

                                                   TOTAL CONTACTS – 1




                                                                                                                                                                    6
    SECTION 7 – Listing of Particularly               SECTION 10 – Audit Reports, Inspection
    Significant Reports                                   SECTION
                                                      Reports,    and 10   – Audit Reports,
                                                                        Evaluation     ReportsInspection
                                                                                                 Issued
                                                          Reports,
                                                      Before          and Evaluation Reports
                                                               the Commencement                      Issued
                                                                                          of the Reporting
    There were no particularly significant reports        Before
                                                      Period   for the  Commencement
                                                                     Which   No Management    of the  Reporting
                                                                                                  Decision
    during the reporting period.                      HasPeriod     for Which
                                                            Been Made      by theNoEndManagement      Decision
                                                                                          of the Reporting
    .                                                     Has Been Made by the End of the Reporting
                                                      Period
      SECTION 8 – Statistical Tables Showing              Period
    Total Number of Audit Reports, Inspection         As shown on Table I, there were two audit
    Reports, and Evaluation Reports and the           reports  issuedon
                                                          As shown      before
                                                                           Tablethe   commencement
                                                                                  I, there was one audit of
    Dollar Value of Questioned Costs                  the report
                                                           reporting  period
                                                                  issued       for which
                                                                           before         no management
                                                                                    the commencement        of the
                                                      decision   has period
                                                          reporting   been made      by the
                                                                              for which   noend   of the
                                                                                             management
    Table I of this report presents the statistical   reporting
                                                          decisionperiod.
                                                                     has been made by the end of the
    information showing the total number of               reporting period.
    audit reports, inspection reports, and            SECTION 11 – Significant Revised
    evaluation reports and the total dollar value         SECTION 11
                                                      Management           – Significant
                                                                        Decisions     MadeRevised
                                                                                             During the
    of questioned costs.                                  Management Decisions Made During the
                                                      Period
                                                          Period
    SECTION 9 – Statistical Tables Showing            No significant revised management decisions
    Total Number of Audit Reports, Inspection         wereNomade     duringrevised
                                                              significant    the reporting   period. decisions
                                                                                      management
    Reports, and Evaluation Reports and the               were made during the reporting period.
    Dollar Value of Recommendations that              SECTION 12 – Significant Management
    Funds be Put to Better Use by                         SECTION
                                                      Decisions      With  – Significant
                                                                       12 Which            Management
                                                                                    the Inspector    General
    Management                                            Decisions With Which the Inspector General
                                                      Disagrees
                                                          Disagrees
    As shown on Table II, there were no audit         There were no significant management
    reports, inspection reports and evaluation        decisions   that the
                                                          There were     no Inspector
                                                                             significantGeneral   disagreed
                                                                                         management
    reports with recommendations that funds be        withdecisions
                                                            during the   reporting
                                                                      that           period.General disagreed
                                                                            the Inspector
    put to better use by management.                      with during the reporting period.




\



                                                                                                         7
                                                                             TABLE I

                                  INSPECTOR GENERAL ISSUED REPORTS
                                        WITH QUESTIONED COSTS


                                                                                                 QUESTIONED UNSUPPORTED                                 POTENTIAL
                                                                             NUMBER                   COSTS                      COSTS                   REFUNDS1
        A. For which no management decision
             has been made by the commencement
             of the reporting period                                                2                 172,931                   (172,931)                      93,485


        B. Which were issued during the reporting
             period                                                                 0                              0                       (0)                         0


             Subtotals (A + B)                                                      2                 172,931                   (172,931)                      93,485


        C. For which a management decision was
             made during the reporting period                                       0                              0                       (0)                         0


             (i)     Dollar value of disallowed costs                               0                              0                       (0)                         0


             (ii)    Dollar value of costs not
                    disallowed                                                      1                      90,898                 (90,898)                     45,449


        D. For which no management decision has
              been made by the end of the reporting
              period                                                                1                       82,033                (82,033)                     48,036


             Reports for which no management
             decision was made within six months of
             issuance                                                               1                       82,033                (82,033)                     48,036


1/           The potential refund amount usually will not equal the questioned cost amount because matching requirements must be considered and the grantee may be
either under or over matched. In addition, historically, the potential refund generally is reduced significantly as a result of the audit followup process, which includes
examination of documentation submitted by the grantee.




                                                                                                                                                                             8
                                       TABLE II

         INSPECTOR GENERAL ISSUED REPORTS
WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                             DOLLAR
                                                    NUMBER    VALUE

 A. For which no management decision has been
    made by the commencement of the reporting
    period                                            0        0

 B. Which were issued during the reporting
    period                                            0        0

    Subtotals (A + B)                                 0        0

 C. For which a management decision was made
    during the reporting period                       0        0

    (i)    dollar value of recommendations
           that were agreed to by management          0        0

           - based on proposed management
             action                                   0        0

           - based on proposed legislative action     0        0

    (ii)   dollar value of recommendations that
           were not agreed to by management           0        0

 D. For which no management decision has been
    made by the end of the reporting period           0        0

    Reports for which no management decision
    was made within six months of issuance            0        0




                                                                      9
                                                                                  APPENDIX A


                            DEFINITIONS OF TERMS USED

The following definitions apply to terms used in reporting audit statistics:


Questioned Cost                       A cost that the Office of Inspector General (OIG)
                                      questioned because of alleged violation with a provision of
                                      a law, regulation, contract, or other agreement or
                                      document governing the expenditure of funds; such cost is
                                      not supported by adequate documentation; or the
                                      expenditure of funds for the intended purpose is
                                      unnecessary or unreasonable.

Unsupported Cost                      A cost which the OIG questioned because the cost was
                                      not supported by adequate documentation at the time of
                                      the audit.

Disallowed Cost                       A questioned cost that management has sustained or
                                      agreed should not be charged to the NEA grant or
                                      cooperative agreement.

Funds Be Put To Better Use            A recommendation made by the OIG that funds could be
                                      used more efficiently if management took actions to
                                      implement and complete the recommendation.

Management Decision                   Management's evaluation of the findings and
                                      recommendations contained in the audit report and the
                                      issuance of management’s final decision, including actions
                                      to be taken. Interim decisions and actions are not
                                      considered final management decisions for the purpose of
                                      the tables in this report.

Final Action                          The completion of all actions that management has
                                      concluded in its management decision with respect to
                                      audit findings and recommendations. If management
                                      concluded that no actions were necessary, final action
                                      occurs when a management decision was made.
                    REPORTING WRONGFUL ACTS
Anyone, including Agency employees, who learns about or has reason to suspect the
occurrence of any unlawful or improper activity related to NEA operations or programs, should
contact the OIG immediately. A complaint/referral may be reported using any of the following
methods:
               Toll-free OIG Hotline: 1-877-535-7448
               Local Calls: 202-682-5479
               Fax: 202-682-5649
               Email: oig@arts.gov
               Website: www.arts.gov/about/oig/fraud.html


You may also visit or write us at the National Endowment for the Arts, Office of Inspector
General, Room 601, 1100 Pennsylvania Avenue, NW, Washington, DC 20506.

When contacting the OIG, it will help if you have answers to the following questions:

       Who are the parties involved (names, addresses and phone numbers if possible);

       What is the suspected activity (specific facts of the wrongdoing);

       When and where did the wrongdoing occur;

       How did you learn about the activity (from a third party, actual observation, conclusion
       drawn from observing or performing different activities, etc.); and

       Where can you be contacted or when will you contact us again.
The OIG will not disclose the identity of a complainant or informant without consent, unless the
Inspector General determines that such disclosure is unavoidable during the course of the
investigation. You may remain anonymous, if you choose. Federal employees are protected
against reprisal for disclosing information to the Inspector General unless such disclosure was
knowingly false.
   NATIONAL ENDOWMENT FOR THE ARTS




     CHAIRMAN’S SEMIANNUAL REPORT
            ON FINAL ACTION
RESULTING FROM AUDIT REPORTS, INSPECTION
   REPORTS, AND EVALUATION REPORTS

   October 1, 2011 through March 31, 2012




                 Submitted
                 May 2012
                             TABLE OF CONTENTS




INTRODUCTION                                                               1

REPORT ON FINAL ACTION RESULTING FROM AUDIT REPORTS,
INSPECTION REPORTS AND EVALUATION REPORTS

  Section 1    Comments Relating to the Inspector General's Report         2

  Section 2    Management Report on Final Action on Audits, Inspections,
               and Evaluations with Disallowed Costs for the Six-Month
               Period Ending March 31, 2012                                3

  Section 3    Management Report on Final Action on Audits, Inspections,
               and Evaluations with Recommendations to Put Funds to
               Better Use for the Six-Month Period Ending March 31, 2012   3

  Section 4    Audit Reports, Inspection Reports, and Evaluation Reports
               for Which a Management Decision Was Made Prior to
               April 1, 2012, but on Which Final Action Has Not Occurred   3

  Table A      Management Report on Final Action on Audits, Inspections,
               and Evaluations with Disallowed Costs for the Six-Month
               Period Ending March 31, 2012                                4

  Table B      Management Report on Final Action on Audits, Inspections,
               and Evaluations with Recommendations to Put Funds to
               Better Use for the Six-Month Period Ending March 31, 2012   5
                                  INTRODUCTION


The Inspector General Act of 1978, as amended by the Inspector General Act Amendments of
1988 (Public Law 100-504), established independent, objective units within Federal agencies
for the following purposes:

      To supervise and conduct audits and investigations of agency programs and operations;

      To lead, coordinate, and recommend policies for promoting economy, efficiency, and
       effectiveness in the administration of programs and operations, and to prevent and
       detect fraud and abuse therein; and

      To keep the agency head and the Congress informed about related problems and
       deficiencies and associated corrective action.

On October 14, 2008, the President signed the Inspector General Reform Act of 2008 (Public
Law 110-409). The 2008 Act amends the previous IG Act of 1978 to enhance the
independence of the Inspectors General, to create a Council of the Inspectors General on
Integrity and Efficiency, and for other purposes.

Section 106(a) of P.L. 100-504 requires the Inspector General to report semiannually on the
office’s activities for the preceding six-month periods ending March 31st and September 30th.
The report must (1) address significant problems, abuses, and deficiencies in the management
of agency programs and operations identified during the reporting period, and (2) identify
recommendations for corrective action. Section 106(b) directs the Inspector General to furnish
this report within 30 days to the agency head, who is required to prepare a separate report on
management decisions resulting from audit reports, inspection reports, evaluation reports, the
status of disallowed costs, and final actions taken during the corresponding period, including
any comments deemed appropriate. The agency head must transmit both reports to the
Congress within the ensuing 30 days.

Accordingly, the Chairman presents the Arts Endowment’s management report for the period
October 1, 2011 through March 31, 2012.




                                              1
        REPORT ON FINAL ACTION RESULTING FROM AUDIT REPORTS,
            INSPECTION REPORTS, AND EVALUATION REPORTS


Section 1.   Comments Relating to the Inspector General's Report

             A. Comments on OIG’s Summary Section

             Audits/Inspections/Evaluations/Reviews. As reported in the Inspector General’s
             Semiannual Report to the Congress, at the end of the reporting period there was
             one outstanding report with questioned costs and potential refunds; management
             continues to work with the auditee to resolve the outstanding audit issues.

             When the Audit Followup Official disallows questioned costs, it is typically
             because the grantee or cooperator has responded inadequately to the Arts
             Endowment’s request for supporting documentation, such as canceled checks,
             invoices, contracts, personnel activity reports, or testimonial evidence. Agency
             funds may represent only a small portion of an awardee’s total project costs.
             Deficiencies normally are resolved through the Agency’s audit resolution process,
             and refunds are infrequent.

             Technical Assistance: Improved Oversight. The Arts Endowment places a high
             priority on ensuring that employees are well informed about policies, procedures,
             and requirements related to grants administration and audits. The Grants &
             Contracts Office routinely conducts training on various topics for Agency staff,
             including targeted one-on-one training as necessary. During the period, the
             Grants & Contracts Office and the OIG continued to provide technical assistance
             and compliance evaluations for grantees. The Grants & Contracts Office also
             updated internal directives and guidance documents.

             Web Site. The Arts Endowment continues to provide its “My Grant at a Glance”
             feature on the Agency Web site. In addition to tracking the status of payment
             requests online, grantees can obtain historical reports of their grants back to at
             least 1988. The reports include the amount of the grant, the period of support, and
             a brief project description. The Arts Endowment continues to require electronic
             application submission through Grants.gov across all Arts Endowment programs;
             applicants unable to apply electronically through Grants.gov must request
             permission from the Agency to submit applications through an alternative
             method.

             In addition, the Agency launched a new online reporting tool, required for direct
             organizational grantees, that significantly enhances the Agency’s ability to track
             the geographic location of supported project activities. Finally, the Arts
             Endowment now requires all grantee final reports to be submitted electronically.



                                               2
             Other Activities. Arts Endowment staff continued to work closely with the OIG
             on issues of mutual interest, such as the independent audit of the Agency’s
             financial statements for fiscal year 2011, and Recovery Act activities. As
             mentioned in the Semiannual Report, the OIG is now fully staffed.

             B. Comments on OIG’s Sections 1 and 2

             OIG audit, inspection, and evaluation reports on Arts Endowment awardees are
             based upon reviews conducted by the OIG itself or upon OIG analysis of audits
             completed by outside auditors. The outside audits may be performed by State
             audit agencies, by other Federal agencies (generally the agency providing the
             greatest amount of Federal funding to an organization also supported by the Arts
             Endowment), or by independent public accountants engaged by awardees.

Section 2.   Management Report on Final Action on Audits, Inspections, and Evaluations
             with Disallowed Costs for the Six-Month Period Ending March 31, 2012
             (Section 8 of the OIG Report)

             There were no audit, inspection, or evaluation reports with management decisions
             made that were awaiting final action at the beginning of the period. (See Table A).

Section 3.   Management Report on Final Action on Audits, Inspections, and Evaluations
             with Recommendations to Put Funds to Better Use for the Six-Month Period
             Ending March 31, 2012 (Section 9 of the OIG report)

             There were no audits, inspections, and evaluations with recommendations to put
             funds to better use awaiting final action as of March 31, 2012 (see Table B).

Section 4.   Audit Reports, Inspection Reports, and Evaluation Reports for Which a
             Management Decision Was Made Prior to April 1, 2012, but on Which Final
             Action Has Not Occurred

             There were no audit, inspection, or evaluation reports for which a management
             decision was made prior to April 1, 2012, on which final action has not yet
             occurred.




                                               3
                                                          TABLE A

                         MANAGEMENT REPORT ON FINAL ACTION
           ON AUDITS, INSPECTIONS, AND EVALUATIONS WITH DISALLOWED COSTS
                   FOR THE SIX-MONTH PERIOD ENDING MARCH 31, 2012


                                                                       # OF            DISALLOWED                 POTENTIAL
                                 ITEM                                REPORTS              COSTS                   REFUNDS

A.    Audit/inspection/evaluation reports with
      management decisions on which final action
      had not been completed at the beginning of
      the reporting period. See Note 1.                                    0                            $0                      $0

B. Audit/inspection/evaluation reports on which
   management decisions were made during the
   reporting period. See Note 2.                                           0                              0                      0

     Subtotal (A+B)                                                        0                            $0                      $0

C. Audit/inspection/evaluation reports on which final
   action was taken during the reporting period,
   including:

     i.    The dollar value of disallowed costs that
           were recovered by management through:

            a. Collection & offsets                                        0                            $0                      $0
           b. Property                                                     0                              0                      0
           c. Other                                                        0                              0                     0

     ii.    The dollar value of disallowed costs that
            were written off by management.                                0                              0                      0

     Subtotal (i + ii) See Note 3                                          0                            $0                      $0

D. Audit/inspection/evaluation reports for which no final
   action has been taken by the end of the reporting
   period. (A+B-C) See Note 4.                                             0                            $0                      $0

Notes:
  1. Reports in which management has made a decision to disallow costs; however, final actions (e.g., collection, write-offs)
       were not completed by the beginning of the reporting period.
  2. Reports in which management has made a decision, during the reporting period, to disallow costs.
  3. Reports in which final actions were completed during the reporting period.
  4. Reports in which management has made a decision to disallow costs; however, final action was not completed by the end
       of the reporting period.




                                                                4
                                              TABLE B

    MANAGEMENT REPORT ON FINAL ACTION ON AUDITS, INSPECTIONS,
AND EVALUATIONS WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
         FOR THE SIX-MONTH PERIOD ENDING MARCH 31, 2012

                                                                            FUNDS TO BE
                                                                    # OF      PUT TO
                                 ITEM                             REPORTS   BETTER USE


   A.   Audit/inspection/evaluation reports with management
        decisions on which final action had not been taken at
        the beginning of the reporting period.                       0          $0


   B.   Audit/inspection/evaluation reports on which
        management decisions were made during the period.            0           0

        Subtotal (A+B)                                               0           0


   C. Audit/inspection/evaluation reports on which final action
      was taken during the period:


        i. Dollar value of recommendations
           implemented:

           a. Based on management action                             0           0
           b. Based on proposed legislative action                   0           0


        ii. Dollar value of recommendations not
            implemented                                              0           0


        Subtotal (i+ii)                                              0           0

   D. Audit/inspection/evaluation reports needing final action
      at end of the period. (A+B-C)                                  0          $0




                                                  5
